No.

IN THE

Robert Ibarra

Petitioner,
v.

W. L. Montgomery, Acting Warden,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this petition is 37 pages
long and therefore complies with the page limit set out in Rule 33 and was
prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: April 6, 2021

MAliK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

1

